No. 19-304

 

IN THE
Supreme Court of the Anited States

RANGER AMERICAN OF THE VIRGIN ISLANDS, INC., e¢ al.,

Petitioners,
v.

FREDERICK J. BALBONI, JR.,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of the Virgin Islands

BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,960 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 4, 2019.

Ck

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
